            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
         STATE OF ARIZONA
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2003

    November 2004   A-77-05-00001




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY
MEMORANDUM
Date:   November 16, 2004                                                    Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Assistant Inspector General
         for Audit

Subject: Management Advisory Report: Single Audit of the State of Arizona for the Fiscal Year
        Ended June 30, 2003 (A-77-05-00001)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Arizona for the Fiscal Year ended June 30, 2003. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        The Arizona Auditor General performed the audit. The Department of Health and
        Human Services (HHS) desk review concluded that the audit met Federal requirements.
        In reporting the results of the single audit, we relied entirely on the internal control and
        compliance work performed by the Arizona Auditor General and the reviews performed
        by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Arizona Disability Determination Services (DDS) performs disability determinations
        under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
        reimbursed for 100 percent of allowable costs. The Arizona Department of Economic
        Security (DES) is the Arizona DDS’ parent agency.
Page 2 – Candace Skurnik


The single audit reported that internal controls over payments for services were not
followed. Specifically, (1) documentation was not maintained to support payments to
five doctors totaling $4,744, (2) a vendor was underpaid for transportation service, and
(3) an incorrect warrant was not properly cancelled and then reissued for the correct
amount. The corrective action plan indicated that DES will enforce established
procedures for payment, including matching invoices to payment vouchers and voiding
incorrect warrants (Attachment A, pages 1 through 3).

In addition, the single audit reported that eight medical consultants, contracted by DES
to review medical files, petitioned the Internal Revenue Service (IRS) for a
determination of their employment status with DES for Federal employment tax
purposes. In Fiscal Year (FY) 2001, the IRS determined that the medical consultants
should have been paid as employees rather than contractors and DES was responsible
for paying employer’s taxes retroactive to 1997, which may include interest and
penalties. 1 As of FY 2004, DES had not reimbursed the IRS for the employer’s taxes.

The corrective action plan indicated that DES is working with the Arizona Attorney
General’s Office to resolve this issue (Attachment A, pages 2 through 4). During our
review of the single audit we contacted DES to determine the status of this finding.
DES indicated that they are currently working on solicitations for new contracts.
Contract agreements will be modified to ensure the language in the contract supports
independent contractor status.

We recommend that SSA:

1. Remind the DDS to maintain adequate documentation to support all expenditures.

2. Determine if the $4,744 paid to doctors was for valid services and instruct the DDS
   to return any unallowable costs.

3. Ensure contract language supports the status of medical consultants as independent
   contractors.




1
  If the IRS assesses interest and penalties to DES, SSA should ensure any interest or penalties are not
charged to its program. Office of Management and Budget Circular A-87, “Cost Principles for State, Local
and Indian Tribal Governments” states that fines, penalties, and other settlements resulting from
violations (or alleged violations) of Federal laws and regulations are unallowable except when incurred as
a result of compliance with specific provisions of the Federal award or written instructions by the awarding
agency authorizing in advance such payments.
Page 3 – Candace Skurnik


Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Rustigian. If you have questions contact Shannon Agee at (816) 936-5590.




                                     S
                                     Steven L. Schaeffer

Attachments
Attachment A
  Page 1 of 4
Attachment A
  Page 2 of 4
Attachment A
  Page 3 of 4
Attachment A
  Page 4 of 4
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
